                                                            NATIONAL SCIENCE FOUNDATION
                                                             OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM
                                                                                                             -




                                                                                        11
                                                                              'I

     Case Number: I06020005                                                   Il
                                                                                                   Page 1 of 1



              OIG received an allegation that the PI' on an SBIR award2may have submitted false progress
              reports to the agency. Additionally, the complainant3alleged the fish used in the research had
              been deceased since July 2005. An investigation was initiated to determine if the progress
              reported by the PI was accurate and whether NSF hnds were being used to further the research
                                                                        I1
              project.

             After visiting the research site(s), interviewing key employees4as well as the PI and reviewing
             the financial information, OIG is satisfied that the research ,is progressing as it should and the
             grants monies are being spent appropriately.

                        Accordingly, this case is closed.




                                                                         I\
-                       ---- .- -                -- --         --                  --                       --    --

    NSF OIG Form 2 (I 1/02)
